         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report

Tactical Response Force Pursuit
Operations at Idaho National
Laboratory




INS-O-13-02                    November 2012
                                   Department of Energy
                                     Washington, DC 20585

                                        November 30, 2012



MEMORANDUM FOR THE MANAGER, IDAHO OPERATIONS OFFICE


FROM:                     Sandra D. Bruce
                          Assistant Inspector General
                             for Inspections
                          Office of Inspector General

SUBJECT:                  INFORMATION: Inspection Report on "Tactical Response Force
                          Pursuit Operations at Idaho National Laboratory"

BACKGROUND

In support of the Department of Energy's mission, several national laboratories, to include Idaho
National Laboratory (Idaho), work with Special Nuclear Material. Idaho protects such materials
with an armed protective force comprised of specially trained and equipped contractor personnel.
Idaho is managed and operated by Battelle Energy Alliance (Battelle). The Department's Idaho
Operations Office oversees the activities of Idaho and Battelle.

Because of the presence of nuclear materials, Federal regulations require Idaho's contractor to
maintain a highly trained Tactical Response Force to protect nuclear weapons, weapon
components and Special Nuclear Material. As part of Idaho's protection strategy, the Tactical
Response Force is equipped with vehicles to respond to attacks and pursue adversaries. It is
possible for adversaries to cross jurisdictional lines and enter into a jurisdiction where several
different Federal, state and local law enforcement agencies reside.

Because such activities have the potential to endanger members of the public, we initiated this
inspection to determine whether Idaho's Tactical Response Force was properly prepared, trained
and equipped to execute its mission related to pursuit of suspects across jurisdictional lines.

RESULTS OF INSPECTION

Our inspection revealed several weaknesses with Idaho's approach to pursuits that could cross
jurisdictional lines. In particular, we identified problems with coordination, communication and
equipment that could, if not addressed, result in confusion and lead to injury of members of the
public. Specifically, we found that:

     Idaho had not coordinated with and established Memorandums of Understanding
      (MOUs) with other law enforcement bodies regarding specific roles and
      responsibilities during pursuits across jurisdictional lines;
                                                  2


     Emergency notification procedures necessary to communicate with Federal, state or
      local law enforcement agencies during pursuit operations across jurisdictional lines
      were not formalized and documented; and,

     Tactical Response Force vehicles were not properly equipped to adequately alert the
      public during pursuit operations.

With regard to pursuits, we were told that the Site Safeguards and Security Plan (SSSP) does not
require the Tactical Response Force to obtain assistance from law enforcement agencies in the
jurisdiction affected by the pursuit, and as such, formal agreements such as MOUs were not
required. We noted, however, that other Department sites with Tactical Response Force
personnel had MOUs with law enforcement agencies to avoid confusion regarding roles and
responsibilities when crossing jurisdictional lines. Agreements in this area are particularly
important because Department Order 473.3, Protection Program Operations, specifically
requires that primary responsibility must be ceded to law enforcement officials from other
jurisdictions if they choose to become involved with the pursuit.

We were also told that Idaho had not formalized and documented its emergency notification
procedures because the Tactical Response Force knew what to do when communicating with law
enforcement officials from other jurisdictions during a pursuit. However, we found that Idaho's
position was not consistent with the requirements of the Tactical Response Force's internal
policy and requirements established by the Department. Specifically, the Department requires
each site to prepare site-specific guidelines that address procedures used to provide emergency
notification to jurisdictions that may be crossed during a pursuit situation. Local directives also
require that tactical responders adhere to emergency notification procedures when crossing or
entering other jurisdictions. This direction could be difficult to follow because Idaho had not
formalized and documented its emergency notification procedures.

Finally, Idaho officials indicated that due to budget considerations and Idaho's commitment to
cost effective implementation of Department policy, Idaho officials chose to equip their vehicles
as opposed to purchasing fully equipped vehicles. While acknowledging that not all of their
Tactical Response Force pursuit vehicles had the equipment listed in Department Order 473.3
and Idaho State Statutes, Idaho Operations Office officials stated that due to tactical
considerations, it was "not practical" to equip all of their vehicles with the required lights and
sirens. However, Department policy does not specifically allow sites to deviate from equipment
requirements on their own authority.

Without the proper mechanisms in place there is potential for confusion between law
enforcement agencies from other jurisdictions that could compromise a successful pursuit
operation, as well as increase the risk to public safety. To help reduce the risk in this area, we
made recommendations designed to enhance coordination with Federal, state or local law
enforcement agencies and reduce the risk to public safety during pursuit operations that may
cross jurisdictional lines.
                                                3


While we recognize that pursuits across jurisdictional lines are not everyday occurrences, site
security forces must adhere to established Department protocols that might impact its ability
to successfully pursue adversaries. The circumstances we observed during our Special
Inquiry, Inquiry into the Security Breach at the National Nuclear Security Administration's
Y-12 National Security Complex, (OIG-0868, August 2012), readily demonstrate the impact
of failure to ensure that established security protocols are adhered to.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated it was in the process of
implementing improvements to address our recommendations. Management's formal comments
are included in Appendix 3.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary of Energy
      Assistant Secretary for Nuclear Energy
      Chief of Staff
REPORT ON TACTICAL RESPONSE FORCE PURSUIT OPERATIONS
AT IDAHO NATIONAL LABORATORY

TABLE OF
CONTENTS


Tactical Response Force Pursuit Operations

Details of Finding                                     1

Recommendations                                        7

Management and Inspector Comments                      7


Appendices

1. Objective, Scope and Methodology                    9

2. Related Reports                                     11

3. Management Comments                                 12
TACTICAL RESPONSE FORCE PURSUIT OPERATIONS AT IDAHO
NATIONAL LABORATORY

TACTICAL RESPONSE   Idaho National Laboratory's (Idaho) Tactical Response Force
FORCE PURSUIT       did not have appropriate mechanisms in place to effectively
OPERATIONS          coordinate and communicate with law enforcement agencies to
                    engage in pursuit operations across jurisdictional lines. Further,
                    the Tactical Response Force did not have proper visual and audible
                    equipment on its vehicles to assure public safety during pursuit
                    operations. Department Order 473.3, Protection Program
                    Operations, Idaho State Statutes, and Idaho's Tactical Response
                    Force policy provides requirements for the Tactical Response
                    Force to follow during a pursuit of an adversary that leaves the site
                    and enters another law enforcement agency's jurisdiction.

                              Coordination with Law Enforcement Agencies

                    We found that Idaho had not coordinated with and established
                    Memorandums of Understanding (MOUs) with other local law
                    enforcement bodies regarding specific roles and responsibilities
                    during pursuits across jurisdictional lines. Department Order 473.3
                    addresses coordination with other law enforcement agencies, and
                    stipulates that when other Federal, state and local law enforcement
                    agencies with jurisdiction in the pursuit area join the pursuit, they
                    must be primarily responsible for the continued pursuit. In such a
                    circumstance, it is imperative for all parties involved in the pursuit
                    to have a clear understanding and agreement of their respective
                    roles and responsibilities. However, the Idaho Operations Office
                    had not established agreements with law enforcement agencies
                    delineating the authorities of participating organizations when
                    crossing jurisdictional lines.

                    Because Idaho had not entered into MOUs with other law
                    enforcement agencies, it had not invited law enforcement agencies
                    to participate in training exercises with the Tactical Response
                    Force regarding pursuit operations across jurisdictional lines.
                    Department Order 473.3 requires that the Federal Security
                    Authority at the site request that the Federal Bureau of
                    Investigation and other Federal, state and local law enforcement
                    agencies that would assist during a site security incident participate
                    in training exercises at least every 12 months.

                    Idaho Operations Office officials stated that the Tactical Response
                    Force would pursue adversaries across jurisdictional lines to
                    recover stolen nuclear materials. One official told us that the Site
                    Safeguards and Security Plan (SSSP) does not require the Tactical
                    Response Force to obtain assistance from law enforcement
                    agencies in the jurisdiction affected by the pursuit. The same
                    official also noted that if those agencies offered to assist the


Page 1                                                                Details of Finding
         Tactical Response Force by setting up road blocks or conducting
         traffic control, it would coordinate with those agencies. An official
         with the Department's Office of Health, Safety and Security said
         that typically the Department has MOUs with law enforcement
         agencies establishing methods to control traffic and set up road
         blocks during a pursuit, but that if the site was not expecting
         support from local law enforcement, then it did not need an MOU
         even though it "made good sense." However, we did note that
         other national laboratories have MOUs with law enforcement
         agencies that establish procedures for pursuit situations that cross
         jurisdictional lines, to include conducting traffic enforcement and
         control when requested. Further, the Idaho Operations Office had
         MOUs with state and local law enforcement agencies to enhance
         public safety during environmental hazards such as fires and
         hazardous material leaks, but not for potentially dangerous pursuit
         operations.

         The Idaho Operations Office took the position that Idaho did not
         need MOUs with other local law enforcement bodies regarding
         specific roles and responsibilities during pursuits across
         jurisdictional lines. This position was based on the SSSP which
         stated that "outside law enforcement response is not planned for, or
         relied upon for the protection of SNM [Special Nuclear Material]."
         For situations other than the recapture and recovery of Special
         Nuclear Material, the Idaho Operations Office took the position
         that a fresh pursuit across jurisdictional boundaries was highly
         unlikely. The Idaho Operations Office stated that the SSSP, which
         incorporated detailed vulnerability assessments and performance
         testing, did not indicate a need for support from local law
         enforcement agencies to successfully resolve a security incident;
         therefore, there was no Department requirement for an MOU or
         annual training.

         However, this position did not address the realities of Department
         Order 473.3 with regard to other law enforcement agencies being
         primarily responsible for pursuits in their jurisdictions. Because
         there were no MOUs with other local law enforcement agencies
         stipulating that those agencies would not join the pursuit, it must
         be assumed that local law enforcement would get involved. In
         fact, an Idaho Tactical Response Force management official said
         that other law enforcement agencies would definitely be involved
         in pursuits that enter their jurisdiction. Therefore, we believe an
         MOU in conjunction with appropriate training exercises is
         imperative to avoid confusion and ensure there is a clear
         understanding and agreement on the respective roles and
         responsibilities of all parties involved.



Page 2                                                    Details of Finding
                  Communication with Law Enforcement Agencies

         We determined that emergency notification procedures necessary
         to communicate with Federal, state or local law enforcement
         agencies during pursuit operations across jurisdictional lines were
         not formalized and documented. Department Order 473.3 requires
         each site to prepare site-specific guidelines that address procedures
         used to provide emergency notification to jurisdictions that may be
         crossed during a pursuit situation. Specifically, when it becomes
         apparent to Tactical Response Force officers that they are crossing
         jurisdictional lines, this information must be transmitted
         immediately to the law enforcement authorities of the jurisdiction
         to be crossed in accordance with the site-specific emergency
         notification procedures. To the extent possible, such notifications
         must include a description of the fleeing suspect, the vehicle, the
         alleged criminal violation for which the suspect is being pursued,
         and the location and direction of travel of the suspect. We noted
         that Idaho's internal policy, Conducting Patrol Operations and
         Arrest Authority, included the requirement to adhere to its own
         emergency notification procedures when crossing jurisdictional
         lines. However, Idaho had not formalized and documented its
         emergency notification procedures consistent with the
         requirements of its internal policy and as required by Department
         Order 473.3.

         Site-specific emergency notification procedures are necessary for
         enhancing the ability of the Tactical Response Force to effectively
         execute pursuit operations in the safest manner when crossing
         jurisdictional lines. We believe such procedures: (1) allow for the
         uniform training of Idaho's Tactical Response Force on proper
         procedures; (2) give trainers and supervisors the ability to
         uniformly measure officers' proficiency levels; and, (3) inform new
         and auxiliary officers of the proper procedures to use during
         pursuit operations. By not having formal emergency notification
         procedures in place, confusion may occur between the Tactical
         Response Force officers and other law enforcement agencies when
         crossing jurisdictional lines.

         The Idaho Operations Office stated that Idaho has historically and
         successfully coordinated and communicated with local law
         enforcement agencies on a regular basis for a variety of activities
         including traffic accidents, natural disasters, transportation events,
         and/or trespassers. The Idaho Operations Office cited a site-
         specific procedure requiring protective force personnel to be in
         contact with the assigned supervisor, the Warning Communication




Page 3                                                     Details of Finding
         Center, and Central Alarm Station by radio during any pursuit, and
         to provide appropriate descriptions of a suspect being pursued.

         However, the Idaho Tactical Response Force management officials
         in charge of daily operations and communication said they did not
         have written emergency notification procedures in place to
         communicate with law enforcement agencies. In addition, one
         management official said that Idaho's requirement to have the
         emergency notification procedures with law enforcement was an
         error, and should be removed from the policy. This position,
         however, is inconsistent with Department Order 473.3, which
         requires that sites formalize and document emergency notification
         procedures to communicate with local law enforcement agencies.

                              Pursuit Vehicle Equipment

         We found that Tactical Response Force vehicles were not properly
         equipped to adequately alert the public during pursuit operations.
         Department Order 473.3 requires pursuit vehicles to be equipped
         with visual and audible emergency equipment when practicable
         (e.g. when the site is capable of doing so). In addition, the vehicles
         must be marked as security vehicles. Additionally, State Statutes
         require emergency vehicles to display a flashing light visible in a
         360-degree arc and to sound an audible siren, when reasonably
         necessary, to warn pedestrians and other drivers when engaged in a
         pursuit.

         An Idaho official stated that they had the option to order vehicles
         with a police package that would have included emergency
         equipment required by Department policy and State Statutes. The
         Idaho Operations Office stated that due to budget considerations
         and its commitment to cost effective implementation of
         Department policy, Idaho officials chose to equip their vehicles as
         opposed to purchasing fully equipped vehicles from a vendor
         because it could do so at a reduced cost. We were told by an Idaho
         official and several Tactical Response Force personnel who use
         pursuit vehicles as a regular part of their daily activities that their
         vehicles were only equipped with a red flashing visor light. Upon
         inspection, we noted that these lights did not meet visibility
         requirements. Specifically, the red flashing visor light could only
         be seen in front of the vehicle and not from the required 360-
         degree arc. Further, there was no audible emergency equipment
         such as sirens or public address systems, and no markings to
         identify the vehicles as property of a security force.




Page 4                                                     Details of Finding
         Because the Idaho site is located near a public highway, it is
         possible for the Tactical Response Force to engage in a pursuit of
         an adversary that may require Tactical Response Force officers to
         travel onto that highway and cross jurisdictional lines. We
         recognize that Idaho, in part, was attempting to reduce the cost;
         however, by not having marked vehicles with the proper
         emergency notification equipment, drivers on public roads may be
         unnecessarily put at risk if they are unaware of the pursuit area.
         Further, audible and visual emergency notification equipment
         could give drivers an opportunity to move away from the pursuit
         and into a safer area. In addition to public safety concerns, absent
         clear markings identifying the vehicles as property of a security
         force, the vehicles could possibly be mistaken for adversaries and
         cause confusion among the Tactical Response Force and any
         Federal, state or local law enforcement agencies involved in a
         pursuit. Because recapture and recovery of Special Nuclear
         Material is a high national security priority, the risk to public
         safety during a pursuit could be significant. We believe this risk is
         increased when emergency vehicles lack appropriate emergency
         equipment such as markings, lights and sirens.

         The Idaho Operations Office acknowledged that not all of the
         Tactical Response Force pursuit vehicles had the equipment listed
         in Department Order 473.3 and Idaho State Statutes. The
         Operations Office stated that some vehicles inspected only have
         flip down lights that may not be visible in a 360-degree arc;
         however, it is "not practical" for these specific vehicles to have
         additional lights and sirens based on the function they provide.
         The Idaho Operations Office stated that unique tactical
         considerations are necessary for Special Nuclear Material
         recapture/recovery operations.

         However, Department Order 473.3 does not allow sites to waive
         equipment requirements because it is "not practical," and as such, a
         formal exemption would be required to deviate from these
         requirements. As noted in Department Order 473.3, such an
         exemption must include sufficient analysis to determine that Idaho
         was not capable of equipping all pursuit vehicles as required by
         Department Order 473.3, and describe alternative measures that
         would be used to adequately alert the public during pursuit
         operations.




Page 5                                                    Details of Finding
                          Contributing Factors and Impact

         The conditions discussed in this report occurred, in part, because
         the SSSP did not require the Tactical Response Force to obtain
         assistance from law enforcement agencies in the jurisdiction
         affected by the pursuit. As such, formal agreements such as
         MOUs were not obtained. We noted, however, that other
         Department sites with Tactical Response Force personnel had
         MOUs with law enforcement agencies to avoid confusion
         regarding roles and responsibilities when crossing jurisdictional
         lines. Agreements in this area are particularly important given the
         fact that Department Order 473.3 specifically requires that primary
         responsibility must be ceded to law enforcement officials from
         other jurisdictions if they choose to become involved with the
         pursuit.

         We were also told that Idaho had not formalized and documented
         its emergency notification procedures because the Tactical
         Response Force knew what to do when communicating with law
         enforcement officials from other jurisdictions during a pursuit. We
         found, however, that Idaho's position was not consistent with the
         requirements of the Tactical Response Force's internal policy and
         requirements established by the Department. Specifically, the
         Department requires each site to prepare site-specific guidelines
         that address procedures used to provide emergency notification to
         jurisdictions that may be crossed during a pursuit situation. Local
         directives also require that tactical responders adhere to emergency
         notification procedures when crossing or entering other
         jurisdictions. This direction could be difficult to follow because
         Idaho had not formalized and documented its emergency
         notification procedures.

         Finally, the Idaho Operations Office stated that due to budget
         considerations and Idaho's commitment to cost effective
         implementation of Department policy, Idaho officials chose to
         equip their vehicles as opposed to purchasing fully equipped
         vehicles. While acknowledging that not all of their Tactical
         Response Force pursuit vehicles had the equipment listed in
         Department Order 473.3 and Idaho State Statutes, Idaho
         Operations Office officials stated that due to tactical
         considerations, it was "not practical" to equip all vehicles with
         required lights and sirens. However, without the proper
         mechanisms in place, there is potential for confusion with other
         law enforcement agencies that could compromise a successful
         pursuit operation, as well as increase the risk to public safety.




Page 6                                                    Details of Finding
RECOMMENDATIONS   Considering the potential for confusion during pursuits that may
                  cross jurisdictional lines and the risk to public safety, we
                  recommend that the Manager, Idaho Operations Office:

                      1. Initiate efforts to establish formal agreements with
                         Federal, state or local law enforcement agencies regarding
                         roles and responsibilities during pursuit operations to
                         enhance coordination and public safety if a pursuit crosses
                         jurisdictional lines;

                      2. Invite Federal, state or local law enforcement agencies that
                         could assist during a site security incident to participate in
                         training exercises with the Tactical Response Force
                         regarding pursuit operations that may enter other
                         jurisdictions;

                      3. Ensure the Tactical Response Force establishes
                         documented, mission-specific emergency notification
                         procedures that include an approved, effective
                         communication method for informing Federal, state or
                         local law enforcement agencies that Tactical Response
                         Force officers are entering another jurisdiction during a
                         pursuit; and,

                      4. Ensure that all Idaho Protective Force vehicles that may
                         engage in a pursuit across jurisdictional lines are marked
                         and equipped in accordance with Federal regulations and
                         State Statutes for emergency vehicle equipment, or seek
                         the appropriate exemption to deviate from Department
                         Order 473.3 requirements.

  MANAGEMENT      Management concurred with the report recommendations.
  COMMENTS        The Idaho Operations Office will update Memorandums of
                  Understanding with Local Law Enforcement Agencies to address
                  roles and responsibilities during pursuit operations to enhance
                  coordination and public safety if a pursuit crosses jurisdictional
                  lines. Also, the Idaho Operations Office has directed Battelle
                  Energy Alliance, LLC (BEA), the Management and Operating
                  Contractor, by Contracting Officer Representative (COR) letter to
                  address the recommendations. As a result, BEA plans to change
                  performance testing procedures and invite Federal, State and Local
                  Law Enforcement Agencies to participate in training exercises
                  annually. BEA also plans to change notification procedures to
                  inform adjoining Local Law Enforcement Agencies when entering
                  their jurisdiction. Finally, BEA plans to change their fresh pursuit
                  procedures to only allow appropriately equipped vehicles to



Page 7                                                           Recommendations
              engage in off-site pursuits, and to emphasize that fresh pursuit is
              only authorized for situations involving the theft of Special
              Nuclear Material.

              Management comments have been provided in their entirety in
              Appendix 3.

  INSPECTOR   Management's comments and planned corrective actions are
  COMMENTS    responsive to our report findings and recommendations.




Page 8                                 Management and Inspector Comments
Appendix 1


OBJECTIVE     We initiated this review to determine if Idaho National
              Laboratory's (Idaho) Tactical Response Force was properly
              prepared, trained and equipped to execute its mission related to
              pursuit of suspects across jurisdictional lines.

SCOPE         This inspection was performed from October 2011 to September
              2012, and was focused on the ability of Idaho to implement its
              Tactical Response Force mission. The inspection was conducted at
              the Idaho site, and inquiries were made at other Department of
              Energy (Department or DOE) sites to ascertain other methods
              regarding public safety during pursuit operations.

METHODOLOGY   To accomplish the inspection objective, we reviewed and
              evaluated Idaho's internal policies, Department policies, and State
              Statutes relevant to emergency vehicles operating in the State's
              jurisdiction. We interviewed Federal Operations Office and
              Contractor personnel. We reviewed Tactical Response Force
              training and equipment records, as well as Tactical Response Force
              site-specific operational policies. The documentation we reviewed
              for this inspection also included:

                     DOE Manual 470.4-3A, Contractor Protective Force;

                     DOE Manual 470.4-1, Safeguards and Security Program
                      Planning and Management; and,

                     DOE Order 473.3, Protection Program Operations.

              This inspection was conducted in accordance with the Council of
              the Inspectors General on Integrity and Efficiency, Quality
              Standards for Inspection and Evaluation, issued January 2011.
              Those standards require that we plan and perform the inspection to
              obtain sufficient, appropriate evidence to provide a reasonable basis
              for our conclusions and observations based on our inspection
              objective. We believe the evidence obtained provides a reasonable
              basis for our conclusions and observations based on our inspection
              objective. The inspection included tests of controls and compliance
              with laws and regulations to the extent necessary to satisfy the
              inspection objective. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our inspection. Also, we assessed the
              Department's compliance with the Government Performance and
              Results Modernization Act of 2010 and determined that the
              Department had not established performance measures specifically
              related to public safety during pursuit operations and the use of


Page 9                                      Objective, Scope and Methodology
Appendix 1 (continued)

                     pursuit vehicle emergency equipment. Finally, we relied on
                     computer-processed data, to some extent, to satisfy our objective.
                     We confirmed the validity of such data, when appropriate, by
                     reviewing source documents and performing physical observations.

                     The exit conference was waived by the Idaho Operations Office.




Page 10                                          Objective, Scope and Methodology
Appendix 2

                                   RELATED REPORTS

  •   The Department of Energy's Office of Health, Safety and Security issued a report on the (U)
      Idaho National Laboratory Protective Force Response Capabilities, dated September 30,
      2011. The results of this report are classified "Secret."

  •   Audit Report on Inquiry into the Security Breach at the National Nuclear Security
      Administration's Y-12 National Security Complex (DOE/IG-0868, August 2012). This
      inquiry was initiated to identify the circumstances surrounding the Y-12 National
      Security Complex breach because of the importance of ensuring the safe and secure
      storage of nuclear materials. Our review found that the Y-12 security incident
      represented multiple system failures on several levels. We identified troubling displays
      of ineptitude in responding to alarms, failures to maintain critical security equipment,
      over reliance on compensatory measures, misunderstanding of security protocols, poor
      communications, and weaknesses in contract and resource management. Contractor
      governance and Federal oversight failed to identify and correct early indicators of these
      multiple system breakdowns. When combined, these issues directly contributed to an
      atmosphere in which the trespassers could gain access to the protected security area
      directly adjacent to one of the Nation's most critically important and highly secured
      weapons-related facilities. We noted that following the incident, Y-12 and the National
      Nuclear Security Administration took a number of actions designed to improve security
      at the site. However, the successful intrusion at Y-12 raised serious questions about the
      overall security approach at the facility.




Page 11                                                                       Related Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 12                            Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
                                                                    IG Report No. INS-O-13-02



                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the inspection would have been helpful to the reader in understanding this
      report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report that would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                           Date

Telephone                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
